   NATIONAL RAILROAD
   PASSENGER CORPORATION
                                            Office of Inspector General


          Former Amtrak Contractor Continued to Use Train Voucher
                                       December 7, 2011
                                       Case #DC-11-0329


Using a counterfeit travel voucher, a former Amtrak OIG contractor illegally traveled on Amtrak
over a period of 14 months. Amtrak OIG’s investigation determined that from April 2010
through May 2011, the contractor took 12 trips with a total value of $2,251.
In October 2011 the Superior Court of the District of Columbia issued an arrest warrant on a
charge of First Degree Felony Fraud. The former contractor surrendered and in November 2011,
the United States Attorney’s Office for the District of Columbia deferred prosecution for 4
months. During that 4-month period, the former contractor must not violate any law or be
arrested on probable cause. The former contractor must also serve 32 hours of community
service and make restitution to Amtrak in the amount of $2,251. If the former contractor abides
by the conditions of the agreement, the United States will dismiss the case. If the United States
determines that the former contractor violated the conditions of the agreement, the case will be
set for trial.
